No. 21In the

Supreme Court of the United States
CLINT KRISLOV AND MICHAEL POWERS,
Petitioners,
v.
COOK COUNTY OFFICERS ELECTORAL BOARD,
HON. KAREN A. YARBROUGH, BY SISAVANH
BAKER, HON. KIMBERLY FOXX, BY JESSICA M.
SCHELLER, AND HON. DOROTHY BROWN, BY
MEREDITH HAMMER,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Seventh Circuit

PETITION FOR A WRIT OF CERTIORARI
Clinton A. Krislov
Counsel of Record
Kenneth T. Goldstein
Krislov & A ssociates, Ltd.
20 North Wacker Drive, Suite 1006
Chicago, IL 60606
(312) 606-0500
clint@krislovlaw.com
Counsel for Petitioners
306166

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
Whether federal courts recognize a public interest
exception to mootness, such that Petitioners’ challenge to
the Cook County Election Board’s policy refusing to accept
statistical evidence of sufficient signatures showing should
have been permitted to proceed, since the likelihood of
signature challenges decided by narrow margins is certain
to recur in virtually every year’s ballot access?
Should Petitioners have been permitted to amend their
complaint challenging Cook County’s ballot procedures
based on his denial of a position on the ballot?
Whether, in light of this Court’s Uzuegbunam v.
Preczewski, ___U.S.___, 141 S. Ct. 792 (2021) decision,
holding that damages are presumed in Constitutional
deprivation cases, the dismissal of a candidate’s challenge
to the County’s existing procedures should be reversed,
affording the candidate the opportunity to amend the
complaint, in light of the candidate’s intention to run for
future office and likelihood facing a similar challenge?
Whether it is a violation of the First Amendment or
Due Process to refuse to permit candidates’ statistical
evidence to prove their actual compliance with statutory
signature requirements?

ii
PARTIES TO THE PROCEEDING BELOW
Petitioners are Clint Krislov and Michael Powers.
Respondents are the Cook County Officers Electoral
Board, Hon. Karen A. Yarbrough (Cook County, Illinois,
Clerk), Hon. Kimberly M. Foxx (Cook County, Illinois,
States Attorney) and Hon. Dorothy A. Brown (Cook
County, Illinois, Clerk of the Circuit Court) (in their public
official capacities).

iii
CORPORATE DISCLOSURE STATEMENT
There are no parent corporations or publicly held
companies in this case.

iv
RELATED PROCEEDINGS
Krislov v. Yarbrough, 20-1928, United states Court
of Appeals for the Seventh Circuit. Judgement Date –
February 22, 2021.
Krislov, Power v. Cook County Officer Electoral
Board, et al, No. 20 C 469, United States District Court,
of the Northern District of Illinois, Eastern District
(Kendall, J.) Judgment Date – May 4, 2020.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED  . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING BELOW  . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT  . . . . .  iii
RELATED PROCEEDINGS  . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . .  viii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  ix
OPINION BELOW  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION  . . . . . . . . . . . . . . . 1
STATUTES INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE  . . . . . . . . . . . . . . . . . . . 3
REASONS FOR GRANTING THIS PETITION
FOR CERTIORARI . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
I.

Ballot access is a nationwide concern,
impacting fundamental rights in which those
seeking office must be afforded the opportunity
to statistically show their having attained the
necessary number of signatures  . . . . . . . . . . . . . 7

vi
Table of Contents
Page
II. Mootness and the Public Interest Exception
to Mootness . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
1.

Every election cycle has someone
who ostensibly “comes up short” by
a very small number of signatures,
whose count is almost never reliably
certain, and should be permitted to
offer evidence of statistical margins
to prove their having produced their
necessary signatures. A candidate’s
ballot access is a fundamental right,
and different from disputes over the
final election vote count . . . . . . . . . . . . . . . . . 9

2.

The procedures for challenging petition
signatures are a recurring problem in
every election cycle  . . . . . . . . . . . . . . . . . . . 11

3.

The Challenge to the Process distinctly
survives even if this candidacy ends . . . . . 14

III. Statistical Issues: Where numerical standards
are applied, virtually all courts recognize
that statistical margins of error must be
considered . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
A. The Defendants’ current signature
challenge process fails the standard
of Strict Scrutiny with a preference
in favor of the candidate seeking
access to the ballot . . . . . . . . . . . . . . . . . . . .  17

vii
Table of Contents
Page
B. Need for uniform rules with a presumption
in favor of the challenged candidate  . . . . . 18
IV. Leave to Amend should have been granted
under common circuit rules, and since
amendment would have sufficed under
Uzuegbunam v. Preczewski, ___U.S.___, 141
S. Ct. 792 (2021)  . . . . . . . . . . . . . . . . . . . . . . . . . . 19
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

viii
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT, FILED
FEBRUARY 22, 2021 . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — ORDER OF THE UNITED
STATES DISTRICT COURT, NORTHERN
DISTRICT OF ILLINOIS , EA ST ERN
DIVISION, FILED MAY 4, 2020 . . . . . . . . . . . . . . . 7a
APPENDIX C — OPINION OF THE UNITED
STATES DISTRICT COURT, NORTHERN
DISTRICT OF ILLINOIS , EA ST ERN
DIVISION, FILED MARCH 10, 2020 . . . . . . . . . . 11a

ix
TABLE OF CITED AUTHORITIES
Page
Cases
Anderson v. Celebrezze,
460 U.S. 780, 103 S. Ct. 1564, 75 L. Ed. 2d 547
(1983) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  9, 10
Bell v. Farmers Ins. Exchange,
115 Cal. App. 4th 715 (Cal. App. 1st Dist. 2004)  . . . 16
Bowe v.
Bd Of Election Comm’rs of City of Chicago,
614 F.2d 1147 (7th Cir. 1980)  . . . . . . . . . . . . . . . . . . . 18
Briscoe v. Kusper,
435 F.2d 1046 (7th Cir. 1970) . . . . . . . . . . . . . . . . . . . 10
Bushnell v. State,
5 P.3d 889 Ct. of App. Alaska (2000) . . . . . . . . . . . . . 16
Chavez v. Illinois State Police,
251 F.3d 612 (7th Cir. 2001) . . . . . . . . . . . . . . . . . . . .  17
Citizens for John W. Moore v.
Board of Election Commissioners,
794 F.2d 1254 (7th Cir. 1986) . . . . . . . . . . . . . . . . . . . 11
Cochran v. Schwan’s Home Service, Inc.,
228 Cal. App. 4th 1137 (Cal App. 2d Dist. 2014)  . . 16-17

x
Cited Authorities
Page
Conn. Light & Power Co. v.
Conn. Dep’t of Pub. Util. Control,
2010 Conn. Super. LEXIS 321 (Conn. Superior
Ct. 2010) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
D.C. Court of Appeals v. Feldman,
460 U.S. 462, 103 S. Ct. 1303 (1983)  . . . . . . . . . . . . . 15
Del Monte Fresh Produce Co. v. United States,
570 F.3d 316 (D.C. Cir. 2009) . . . . . . . . . . . . . . . . . . . 12
District of Columbia v. Feldman,
460 U.S. 462 (1983) . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Gill v. Scholz,
962 F.3d 360 (7th Cir. 2020) . . . . . . . . . . . . . . . . . . . . 12
Gjersten v. Board of Election Commissioners,
791 F.2d 472 (7th Cir. 1986) . . . . . . . . . . . . . . . . . . . . 10
Green Party of Georgia v. Kemp,
2016 WL, 1057022
(U.S. Dist. Ct, N.D. GA 2016)  . . . . . . . . . . . . . . . . . . 18
Hall v. Florida,
572 U.S. 701 (2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Haynes v. Dept of Public Safety,
865 P.2d 753 (Alaska 1993) . . . . . . . . . . . . . . . . . . . . . 16

xi
Cited Authorities
Page
Illinois Elections Board v.
Socialist Workers Party,
440 U.S. 173, 59 L. Ed. 2d 230, 99 S. Ct. 983 (1979) . 10
In re Associated Press,
162 F.3d 503 (7th Cir. 1998) . . . . . . . . . . . . . . . . . . . . 14
In re Countrywide Fin. Corp. Mortgage-Backed
Secs. Litig. v. Countrywide Fin. Corp.,
984 F. Supp. 2d 1021 (C.D. Cal. 2013) . . . . . . . . . . . . 15
Int’l Bhd. of Teamsters v. United States,
431 U.S. 324 (1977) . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Jackson-Hicks v.
East St. Louis Bd. Of Election Commrs.,
2015 IL 118929 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Johnson v. Cook County Officers Electoral Bd.,
680 F. Supp. 1229 (N.D. Ill. 1988) . . . . . . . . . . . . . . . 11
King v. Kramer,
763 F.3d 635 (7th Cir. 2014) . . . . . . . . . . . . . . . . . . . . 19
Krislov v. Rednour,
226 F.3d 851 (7th Cir. 2000) . . . . . . . . . . . . . . .  5, 11, 14
Krislov v. Yarbrough,
988 F.3d 975 (7th Cir. 2021) . . . . . . . . . . . . . . . . . . . . . 1
McDaniel v. DOT (In re McDaniel),
2010 Ida. App. LEXIS 72 (Idaho App. 2010) . . . . . . 16

xii
Cited Authorities
Page
Meyer v. Grant,
486 U.S. 414 (1988)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Milwaukee Police Ass’n v. Board of Fire & Police
Commissioners of Milwaukee,
708 F.3d 921 (7th Cir. 2013) . . . . . . . . . . . . . . . . . . . . 11
Motor Vehicle Admin. v. Lytle,
374 Md. 37 (Ct. of App. Md. 2002) . . . . . . . . . . . . . . . 16
Moy v. Cowen,
958 F.2d 168 (7th Cir. 1992) . . . . . . . . . . . . . . . . . . 5, 18
Murphy v. Hunt,
455 U.S. 478, 71 L. Ed. 2d 353, 102 S. Ct. 1181
(1982) (per curiam) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Orion Sales, Inc. v. Emerson Radio Corp.,
148 F.3d 840 (7th Cir. 1998) . . . . . . . . . . . . . . . . . . . . 14
Patino v. City of Pasadena,
230 F. Supp. 3d 667 (S.D. Texas 2017)  . . . . . . . . . . . 15
Patriot Party of Allegheny County v. Allegheny
City of Dept. of Elections,
95 F.3d 253 (3d Cir. 1996) . . . . . . . . . . . . . . . . . . . . . . 13
People v. Axell,
235 Cal. App. 3d 836 (Cal. App. 1991) . . . . . . . . . . . .  17

xiii
Cited Authorities
Page
Pool v. City of Houston,
-F.3d-, 2020 U.S. App. LEXIS 33581, 2020 WL
6253444 (5th Cir. October 23, 2020) . . . . . . . . . . . . . . 9
Reclaim Idaho v. Little,
-Fed. Appx.-, 2020 U.S. App. LEXIS 27832,
2020 WL 5202080 (9th Cir. Sept. 1, 2020) . . . . . . . . . 9
Rooker v. Fidelity Trust Co.,
263 U.S. 413 (1923)  . . . . . . . . . . . . . . . . . . . . . . . .  14, 15
Rosario v. Rockefeller,
410 U.S. 752, L. Ed. 2d 1, 93 S. Ct. 1245 (1973) . . . . 13
Runnion v.
Girl Scouts of Greater Chi. & Nw. Ind.,
786 F.3d 510 (7th Cir. 2015)  . . . . . . . . . . . . . . . . . . . . 19
Smith v. Schriro,
813 F.3d 1175 (9th Cir. 2016)  . . . . . . . . . . . . . . . . . . . 16
State v. Escalante-Orozco,
241 Ariz. 254 (Ariz. Sup. Ct. 2017) . . . . . . . . . . . . . . 16
State v. Finch,
291 Kan. 665 (Supreme Ct. Kansas 2011)  . . . . . . . .  17
Stone v.
Bd. Of Elections Comm’rs of City of Chicago,
750 F.3d 678 (7th Cir 2014) . . . . . . . . . . . . . . . . . . . 9, 18

xiv
Cited Authorities
Page
Super Tire Engineering Co. See, e.g., Reno v.
Bossier Parish Sch. Bd.,
528 U.S. 320, 120 S. Ct. 866,
145 L. Ed. 2d 845 (2000) . . . . . . . . . . . . . . . . . . . . . 11-12
Tobin for Governor v. Ill. Bd. of Elections,
268 F.3d 517 (7th Cir. 2001)  . . . . . . . . . . . . . . . . . . . . 13
Tripp v. Scholz,
872 F.3d 857 (7th Cir. 2017) . . . . . . . . . . . . . . . . . . . . . 9
Tripp. v. Smart,
2016 U.S. Dist. LEXIS 109216 (S.D. Ill.
August 17, 2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
United States v. Wilson,
170 F. Supp. 3d 347 (E.D.N.Y. 2016)  . . . . . . . . . . . . . 16
Uzuegbunam v. Preczewski,
___U.S.___, 141 S. Ct. 792 (2021) . . . . . . . . . .  7, 19, 20
Weinstein v. Bradford,
423 U.S. 147, 46 L. Ed. 2d 350, 96 S. Ct. 347
(1975) (per curiam) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Whitaker v. Milwaukee County,
772 F.3d 802 (7th Cir. 2014) . . . . . . . . . . . . . . . . . . . . 19
Williams v. Allstate Ins. Co.,
2017 Cal. App. Unpub. LEXIS 8510 (Cal.
App. 2d Dist. 2017)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

xv
Cited Authorities
Page
Statutes and Other Authorities
U.S. Constitution - Amendment I . . . . . . . . . . . . . . passim
U.S. Constitution - Amendment XIV - Section 1 . . . 3, 18
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1291  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1331  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1367(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 5
42 U.S.C. § 1973c(c)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
42 U.S.C. § 1983  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 2
Cofsky, Pruning the Political Thicket: The Case for
Strict Scrutiny of State Ballot Access Restrictions, 145
Univ. of Pennsylvania L. Rev. 353 (1996) . . . . . . . . . . . . 10
Hearing Officer recommends Ald. Anthony Beale be
kicked off March committeeperson ballot, Chicago Sun
Times, January 14, 2020  . . . . . . . . . . . . . . . . . . . . . . . . . 12
Illinois State Election Board filings . . . . . . . . . . . . . . . . . 4

1
Clint Krislov and Michael Powers respectfully petition
for a writ of certiorari to review the judgment of the
United States Court of Appeals for the Seventh Circuit
in this case.
OPINION BELOW
The opinion of the Court of Appeals for the Seventh
Circuit, is reported at Krislov v. Yarbrough, 988 F.3d 975
(7th Cir. 2021), and is reprinted in the appendix hereto
at 1a.
The opinions of the United States District Court,
of the Northern District of Illinois, Eastern District
(Kendall, J.) granting and entering judgment for Cook
County Officers Electoral Board, et al, is reprinted in the
appendix hereto at 7a and 11a (the March 10, 2020, final
decision and judgment of the U.S. District Court for the
Northern District of Illinois and denial to vacate May 4,
2020).
STATEMENT OF JURISDICTION
The District Court had jurisdiction as a civil action
arising under the laws of the United States pursuant
to: (i) 42 U.S.C. §1983 to redress the deprivation under
color of law of Plaintiffs’ rights as secured by the United
States Constitution and applicable State law, (ii) 28 U.S.C.
§1331 (federal question) for the federal claim and (iii) over
the State law claim by 28 U.S.C. §1367(a) (Supplemental
Jurisdiction over other claims that are so related that they
form part of the same case or controversy).

2
The Appellate Court had jurisdiction pursuant to 28
U.S.C.§1291. The Opinion of the Seventh Circuit Court of
Appeals was entered February 22, 2021.
Jurisdiction of the Supreme Court of the United States
to review the judgment of the Seventh Circuit is invoked
under 28 U.S.C. §1254(1). On March 19, 2020 and April 15,
2020 the Court extended the deadline to file petitions for
writs of certiorari in all cases to 150 days from the lower
court judgment, and modified/rescinded that order on
July 19, 2021 – per these Orders, this Petition is timely.
STATUTES INVOLVED
42 U.S.C. §1983:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen
of the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by
the Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity,
or other proper proceeding for redress, except
that in any action brought against a judicial
officer for an act or omission taken in such
officer’s judicial capacity, injunctive relief shall
not be granted unless a declaratory decree was
violated or declaratory relief was unavailable.
For the purposes of this section, any Act of
Congress applicable exclusively to the District
of Columbia shall be considered to be a statute
of the District of Columbia.

3
U.S. Constitution - Amendment I
Congress shall make no law respecting an
establishment of religion, or prohibiting the
free exercise thereof; or abridging the freedom
of speech, or of the press; or the right of the
people peaceably to assemble, and to petition
the government for a redress of grievances.
Amendment XIV - Section 1.
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the
state wherein they reside. No state shall
make or enforce any law which shall abridge
the privileges or immunities of citizens of the
United States; nor shall any state deprive any
person of life, liberty, or property, without due
process of law; nor deny to any person within
its jurisdiction the equal protection of the laws.
STATEMENT OF THE CASE
Plaintiff Krislov was a candidate for the Democratic
nomination for the Illinois Supreme Court in the March
17, 2020 primary election. Plaintiff Powers is one of the
circulators and signers of petitions supporting Krislov’s
candidacy for the March 17, 2020 primary election.
In compliance with Illinois election laws requiring
5,050 registered voter signatures, Krislov submitted 9,555
signatures of voters supporting his candidacy for Illinois
Supreme Court Justice in the March 17, 2020 Illinois

4
primary election. Krislov’s signature petitions were
challenged by “objectors” funded by one of his opponents,
who chose not to disclose his identity.1
The “objectors” challenged thousands, virtually all
of Krislov’s signatures and registrations. In the process,
which occurs over a very short time, the challengers
succeeded in challenging 4,601 signatures, leaving 4,954
valid, or 108 (2.01%) short of the 5,050 required signatures.
Krislov challenged the on the fly/seat of the pants
determination process used in Cook County, in which
minimally trained evaluators are forced to make expert
evaluative examination decisions in very short order,
without objective standards, (“It’s just a matter of
judgment” 2 and “there’s no going back”) and with no
consideration for the actual statistical margins of error.
Both the hearing officer and the defendant Hearing
Board rejected Krislov’s challenges to this process as
not assertable in that proceeding, and rejected as well,
Krislov’s offer of statistical evidence to show that Krislov’s
1. Illinois State Election Board filings subsequently show
that this was funded by competing candidate Sheldon Harris,
who, despite spending over a hundred thousand of dollars to
knock Krislov from the ballot, and more than $1.8 million in
commercials, https://www.elections.il.gov/CampaignDisclosure/
ItemizedExpenditures.aspx?FiledDocID=trPWfoWMyVoRiSG
CqxoeVQ%3d%3d&ExpenditureType=VAImtPqPgy1OCIplmE
2dX9gBL3kY%2blD4r9uiFqDOEbc%3d) nonetheless came in a
distant third place in the March 17, 2020 primary election.
2. E.g., one voter signing as “Betsy” was rejected because she
was registered as “Elizabeth” as was an “Anastacia” signing as
“Stacy”.

5
presented signatures were sufficient, when considered
within the margin of error rate for Professional Document
Examiners, using actual objective standards, at least
2.97%, 3.4% to 6.97%, plus or minus, (showing significantly
higher error rates in rejecting valid signatures, than for
accepting invalid signatures, and contrasted with the
error rate for lay personnel, such as those who do the Cook
County evaluation, which is actually plus or minus 19%).
Thus, considering even the most stringent margin of
error for Professional Document Examiners, Krislov’s
offered proof showed that he should have been statistically
regarded as having submitted the necessary 5,050
signatures to secure his place on the ballot, such that
he and his supporters have been deprived of their
First Amendment rights of ballot access. See, Krislov
v. Rednour, 226 F.3d 851 (7th Cir. 2000) (invalidating
restrictions on petition circulators) and Moy v. Cowen,
958 F.2d 168 (7th Cir. 1992).
Since pursuing these challenges within the Cook
County review would have been futile and untimely in
its impact, Krislov and Powers sued in the United States
District Court, asserting that the Cook County procedures
violate the First Amendment’s ballot access protection,
with Supplemental Jurisdiction under 28 U.S.C. § 1367(a)
for the State law claims.
The County defendants moved to dismiss the
complaint, as lacking federal jurisdiction. Following delays
for the initially assigned judge’s sua sponte recusal and
reassignment of the case, the Honorable Virginia M.
Kendall, U.S. District Judge on March 10, 2020, after
briefing, rejected the First Amendment claim, dismissed

6
the complaint but commented that Krislov’s claim might
have rather been asserted as a due process claim:
But Plaintiffs do not apparently dispute the
constitutionality of Illinois’s statutory signature
requirements; instead, they complain that
the means by which the Board invalidated
signatures was unlawful because: (1) “the
records examiners have little training,” or
“special expertise”, (2) there was a “lack of an
objective standard” applied to the review of
signatures, and (3) “the shortfall is well within
the margin of error” such that the total number
of accepted signatures should suffice. These
objections do not sound in First Amendment
law, but rather in state administrative law. 5
Krislov might have some sort of Due
Process claim, but he does not allege
a Due Process claim, and the Court
has received no briefing on whether
the facts alleged state such a claim.
5

Accordingly, on April 3, 2020, Krislov and Powers
moved to vacate the dismissal and amend the Complaint,
to assert it as a Due Process claim), which Judge Kendall
denied May 4, 2020, as moot.
Krislov and Powers thereupon filed a timely Notice
of Appeal on June 2, 2020.
The United States Court of Appeals for the Seventh
Circuit on February 22, 2021, ignoring the offered
evidence showing erroneous exclusions to be far greater
than erroneous exclusions, declared the dispute moot,

7
vacated the judgment of the district court and remanded
with instructions to dismiss for lack of a justiciable
controversy.
REASONS FOR GRANTING THIS
PETITION FOR CERTIORARI
Statistical accuracy of ballot access petitions is
a recurring issue facing candidates nationwide in all
election cycles, such that this court should grant review to
determine whether ballot petition boards must permit the
submission of statistical evidence showing a candidate’s
having satisfied the minimum indicia of support to be
on the ballot, such that the public interest exception to
mootness should have been recognized by the courts
below.
Alternatively, it would be appropriate to issue a
“GVR” order, remanding with instructions to permit the
plaintiffs’ requested leave to amend their Complaint, in
light of this court’s recent decision in Uzuegbunam v.
Preczewski, ___U.S.___, 141 S. Ct. 792 (2021), such that
an amendment seeking nominal damages would have
sufficed for justiciability.
I.

Ballot access is a nationwide concern, impacting
fundamental rights in which those seeking office
must be afforded the opportunity to statistically
show their having attained the necessary number
of signatures.

Ballot access litigation arises in every election cycle,
and the ability to statistically demonstrate a candidate’s
fulfillment of the signatures necessary to appear on the
ballot presents a fundamental right.

8
The Seventh Circuit’s holding that the public interest
exception to mootness applies only if the particular
plaintiff can show that the shortfall in this candidate’s
next petition effort will be sufficiently narrow to require
statistical evidence of compliance and satisfaction, is far
too limiting, such that a petitioner need only show, as here,
that he will likely be subjected to similar challenges in
future election cycles.
II. Mootness and the Public Interest Exception to
Mootness.
While most States recognize a public interest
exception to mootness, the Seventh Circuit’s total rejection
of the concept as federaly nonjusticiable needs to be
addressed by this court.
The public interest exception is especially wellrecognized in ballot petition signature disputes, and has
been recognized by this Court:
We may exercise jurisdiction over this action if
“’(1) the challenged action [is] in its duration too
short to be fully litigated prior to its cessation
or expiration, and (2) there [is] a reasonable
expectation that the same complaining party
would be subjected to the same action again.’”
Murphy v. Hunt, 455 U.S. 478, 482, 71 L. Ed. 2d
353, 102 S. Ct. 1181 (1982) (per curiam), quoting
Weinstein v. Bradford, 423 U.S. 147, 149, 46 L.
Ed. 2d 350, 96 S. Ct. 347 (1975) (per curiam)
Meyer v. Grant, 486 U.S. 414, 417 n.2 (1988).

9
And recognized by other federal Circuits3 in ballot
access/petition signature cases, and Illinois as well. 4
1.

Every election cycle has someone who
ostensibly “comes up short” by a very small
number of signatures, whose count is almost
never reliably certain, and should be permitted
to offer evidence of statistical margins to
prove their having produced their necessary
signatures. A candidate’s ballot access is a
fundamental right, and different from disputes
over the final election vote count.

Supporting a heightened level of scrutiny, Tripp v.
Scholz, 872 F.3d 857, 862-64 (7th Cir. 2017) holds, “It is
well-settled that ‘[t]he impact of candidate eligibility
requirements on voters implicates basic constitutional
rights’ to associate politically with like-minded voters
and to cast a meaningful vote.” (Emphasis added)5.

3. See, e.g., Pool v. City of Houston, -F.3d-, 2020 U.S. App.
LEXIS 33581, 2020 WL 6253444 (5th Cir. October 23, 2020)
(reversing dismissal and remanding for circulators’ concerns
about signature requirements in future elections), and Reclaim
Idaho v. Little, -Fed. Appx.-, 2020 U.S. App. LEXIS 27832, 2020
WL 5202080 (9th Cir. Sept. 1, 2020) (remanding for the parties’
opportunity to brief or develop the record below on the likely
recurrence of the in-person signature controversy in the November
2022 future election).
4. Jackson-Hicks v. East St. Louis Bd. Of Election Commrs.,
2015 IL 118929
5. Citing, Stone v. Bd. of Election Comm’rs for City of Chi.,
750 F.3d 678, 681 (7th Cir. 2014) (quoting Anderson v. Celebrezze,
460 U.S. 780, 786, 103 S. Ct. 1564, 75 L. Ed. 2d 547 (1983).

10
Different from an election vote count (where the final
number determines the winning candidate), a candidate
aspiring to the ballot can be reasonably required to
demonstrate his/her attaining the necessary modicum of
support to be on the ballot6.
And, that is why in the vast number of federal
decisions, where the issue is whether a required quantity
had been met, statistical margins of error must be
permitted, in order to accurately determine whether the
required standard has been met.
A long line of cases recognize that structural
ballot access obstacles inherently implicate the First
Amendment:
A plethora of cases have resolved that a state’s
regulation of procedures for nominating candidates
to appear on an election ballot implicates the First
Amendment, see Anderson v. Celebrezze, 460 U.S.
780, 75 L. Ed. 2d 547, 103 S. Ct. 1564 (1983), due
process, see Briscoe v. Kusper, 435 F.2d 1046 (7th
Cir. 1970); and equal protection, Illinois Elections
Board v. Socialist Workers Party, 440 U.S. 173,
59 L. Ed. 2d 230, 99 S. Ct. 983 (1979); Gjersten
v. Board of Election Commissioners, 791 F.2d
472 (7th Cir. 1986), rights of individuals who sign
6. The reality is that most restrictions to ballot access are
imposed by the “regular” political organizations, seeking to raise
the barriers against entry by “non-organization” candidates and
their supporters, and should be subjected to strict scrutiny in
most cases. See: Cofsky, Pruning the Political Thicket: The Case
for Strict Scrutiny of State Ballot Access Restrictions, 145 Univ.
of Pennsylvania L. Rev. 353 (1996).

11
nominating petitions. Plaintiffs here claim that
the Illinois election rules, and the actions of the
Electoral Board in enforcing them, violated these
rights. Accordingly, plaintiffs have standing to
bring this action. See, e.g., Citizens for John W.
Moore v. Board of Election Commissioners, 794
F.2d 1254 (7th Cir. 1986).
Johnson v. Cook County Officers Electoral Bd., 680 F.
Supp. 1229, 1230 (N.D. Ill. 1988).
2.

The procedures for challenging petition
signatures are a recurring problem in every
election cycle.

This case challenges the process by which candidate’s
signatures are challenged in each cycle. Although the
Krislov candidacy’s competitive viability was irreparably
harmed for the March, 2020 primary election, the issue
of whether the process violates his, and his supporters’
First Amendment rights, remains a viable claim, and the
issue is certain to recur.
It is also clear that challenges to the electoral system
on First Amendment grounds should not be mooted or
depend on whether the candidate remains in the race or
not. Krislov v. Rednour, 226 F.3d 851 (7th Cir. 2000).7
7. Milwaukee Police Ass’n v. Board of Fire & Police
Commissioners of Milwaukee, 708 F.3d 921, 931 (7th Cir. 2013)
denying standing case did not fall within the standard capable
of repetition, yet evading review doctrine with deep analysis of
exception for “mootness when a suit challenges a policy with the
kind of lasting effects discussed in Super Tire Engineering Co.
See, e.g., Reno v. Bossier Parish Sch. Bd., 528 U.S. 320, 327-28,

12
Indeed, the issue is likely to recur in the future,
numerous candidates get challenged and/or knocked off
the ballot each election cycle. 8
The well-accepted “capable of review, yet evading
review” exception in Gill v. Scholz, 962 F.3d 360, 363 n.3
(7th Cir. 2020) applies here. (“Although the appeal of the
stay was dismissed as moot, a justiciable controversy
remained under the “capable of repetition, yet evading
review” doctrine. Under that well-recognized exception to
mootness, a claim still presents a justiciable controversy if
“(1) the challenged action is in its duration too short to be
fully litigated prior to cessation or expiration, and (2) there
is a reasonable expectation that the same complaining
party will be subject to the same action again.”). The
rule applied there because Gill was “unable to litigate his
claims before the November 2016 election was held, and
he has expressed his intent to run for office in 2020.” Id.
120 S. Ct. 866, 145 L. Ed. 2d 845 (2000) (declaratory judgment on
the propriety of electoral redistricting is not moot, even when the
next election will not occur until after data from the next census
becomes available, because the previous redistricting, if valid,
will form the baseline upon which to judge future redistricting),
superseded on other grounds by statute, 42 U.S.C. § 1973c(c); Del
Monte Fresh Produce Co. v. United States, 570 F.3d 316, 321 (D.C.
Cir. 2009)(“a plaintiff’s challenge will not be moot where it seeks
declaratory relief as to an ongoing policy”).”
8. See, e.g. Hearing Officer recommends Ald. Anthony
Beale be kicked off March committeeperson ballot, Chicago
Sun Times, January 14, 2020: https://chicago.suntimes.com/
elections/2020/1/14/21065676/anthony-beale-committeepersonp et it ion- cha l lenge -ma rch-ba l lot a nd see: ht tp s: // w w w.
injusticewatch.org/news/2020/supreme-court-candidate-krislov9-other-judicial-candidates-off-ballot-after-signature-disputes/

13
The issue remains and recurs that a challenge to
the Illinois State and local procedures which stand as
obstacles to candidates’ access to the ballot, and which
will be faced by this Plaintiff, future candidates and
their supporters in future election cycles meets the public
interest exception. Indeed, this satisfies Tobin’s “capable
of repetition” exception, because there is a “reasonable
expectation that the same complaining party will be
subjected to the same action again” (Tobin for Governor
v. Ill. Bd. of Elections, 268 F.3d 517, 529 (7th Cir. 2001)),
and the Court below has itself previously ruled that
Krislov’s intention to run in the future is sufficient to
defeat mootness and preserve justiciability:
As to mootness, everyone concedes the obvious,
that the date of the primary election in which
Krislov and Sullivan wished to participate has
long since passed. Nevertheless, because the
use of non-resident, non-registered solicitors is
still prohibited by Illinois with respect to future
elections, this case is capable of repetition yet
evading review, a recognized exception to the
mootness doctrine. Rosario v. Rockefeller,
410 U.S. 752, 756 n.5, 36 L. Ed. 2d 1, 93 S. Ct.
1245 (1973) (case was not moot although date of
primary had passed and plaintiffs were eligible
to participate in the election where their case
was capable of repetition but likely to evade
review); Patriot Party of Allegheny County
v. Allegheny City of Dept. of Elections, 95
F.3d 253, 257 (3d Cir. 1996). This exception to
the mootness doctrine is applicable, as in the
present case, where the challenged situation is
likely to recur and the same complaining party

14
would be subjected to the same adversity. In re
Associated Press, 162 F.3d 503, 511 (7th Cir.
1998); Orion Sales, Inc. v. Emerson Radio
Corp., 148 F.3d 840, 842 (7th Cir. 1998). Because
at least Krislov has articulated an interest in
pursuing the Democratic Party’s nomination
for other elective offices, we have no doubt that
this case meets these requirements. Hence, the
candidates have standing to bring this action
and mootness is not a bar to the suit.
Krislov v. Rednour, 226 F.3d 851, 857-58 (7th Cir. 2000).
3.

The Challenge to the Process distinctly
survives even if this candidacy ends.

As this Court has explicitly declared 9, while the
candidate’s challenge to the decision on the instant
candidacy might be required to proceed in the State
system, the candidate’s challenge to the State’s procedures
and requirements may be asserted in a federal district
court proceeding:
[6B]The remaining allegations in the complaints,
however, involve a general attack on the
constitutionality of Rule 46I(b)(3). See n. 3,
supra. The respondents’ claims that the rule
is unconstitutional because it creates an
irrebuttable presumption that only graduates
of accredited law schools are fit to practice law,
9. The Rooker-Feldman doctrine. See Rooker v. Fidelity
Trust Co., 263 U.S. 413 (1923) and District of Columbia v.
Feldman, 460 U.S. 462 (1983)

15
discriminates against those who have obtained
equivalent legal training by other means,
and impermissibly delegates the District of
Columbia Court of Appeals’ power to regulate
the bar to the American Bar Association, do
not require review of a judicial decision in a
particular case. The District Court, therefore,
has subject-matter jurisdiction over these
elements of the respondents’ complaints. D.C.
Court of Appeals v. Feldman, 460 U.S. 462, 487,
103 S. Ct. 1303 (1983)10
III. Statistical Issues: Where numerical standards
are applied, virtually all courts recognize that
statistical margins of error must be considered.
In virtually all other situations where numerical
standards are applied, federal and state courts at all levels
recognize that they must consider the statistical margins
of error: See Patino v. City of Pasadena, 230 F.Supp.3d
667, 688 n.6 (S.D. Texas 2017) (Lee H. Rosenthal USDJ)
(“margins of error [in calculating voter numbers] must
be taken into account” for voter redistricting map); In re
Countrywide Fin. Corp. Mortgage-Backed Secs. Litig.
v. Countrywide Fin. Corp., 984 F.Supp.2d 1021, 1029,
esp. n.5 (C.D. Cal. 2013) (samplings of securitizations,
analysis of numerous experts with varying margins of
error); Williams v. Allstate Ins. Co., 2017 Cal. App. Unpub.
LEXIS 8510 (Cal. App. 2d Dist. 2017) (wage and hour
10. The “Rooker” portion of the doctrine merely held that the
review of a decision of the Indiana Supreme Court between two
parties was reviewable only by certiorari, rather than an original
challenge in a federal district court. Rooker v. Fid. Tr. Co., 263
U.S. 413 (1923).

16
class action, analysis of varying sample sizes to reach
acceptable confidence level and margin of error); Bell v.
Farmers Ins. Exchange, 115 Cal. App. 4th 715, 723 and
753 (Cal. App. 1st Dist. 2004) (wage and hour overtime;
need for evaluation of appropriate class size, margin of
error); Bushnell v. State, 5 P.3d 889 Ct. of App. Alaska
(2000) (acceptable margin of error in blood alcohol testing
instrument; and dissent noting, that “failure to apply the
inherent margin of error in favor of the person subject to
license revocation violates due process, citing Haynes v.
Dept of Public Safety, 865 P.2d 753, at 756 (Alaska 1993));
Conn. Light & Power Co. v. Conn. Dep’t of Pub. Util.
Control, 2010 Conn. Super. LEXIS 321 (Conn. Superior Ct.
2010) (critical elements of the margin of error calculation
in rate litigation, remand for review of margin of error
calculation.); United States v. Wilson, 170 F.Supp.3d 347
(E.D.N.Y. 2016) (margin of error in IQ test score in federal
death penalty case); Hall v. Florida, 572 U.S. 701 (2014)
(where defendant IQ test fell within margin of error,
defendant should be able to present additional evidence
of intellectual disability); Motor Vehicle Admin. v. Lytle,
374 Md. 37 (Ct. of App. Md. 2002) (describing split among
State Supreme Courts over whether to require adjustment
of tested person’s Blood Alcohol Content by standard 0.01
margin of error; sides with State in this situation due to
interest in safety and speedy testing); Smith v. Schriro,
813 F.3d 1175 (9th Cir. 2016) (margin of error in evaluating
defendant’s intellectual disability); McDaniel v. DOT (In
re McDaniel), 2010 Ida. App. LEXIS 72 (Idaho App. 2010)
(margin of error in breathalyzer); State v. EscalanteOrozco, 241 Ariz. 254 (Ariz. Sup. Ct. 2017) (death penalty
case courts must consider the margin of error for each IQ
test, regardless of number of tests); Cochran v. Schwan’s
Home Service, Inc., 228 Cal. App. 4th 1137 (Cal App. 2d

17
Dist. 2014) (employee wage claim class action; evaluation of
sampling-based conclusion must consider whether margin
of error in the statistical analysis is reasonable); People
v. Axell, 235 Cal. App. 3d 836 (Cal. App. 1991) (murder
case, DNA analysis took into account a margin for error
in measurement, so admittance into evidence affirmed.);
and State v. Finch, 291 Kan. 665 (Supreme Ct. Kansas
2011) (DUI breathalyzer reversed for trial court’s refusal
to permit defendant to mount a margin of error defense).
Margin of error statistical analysis is also recognized
and accepted “in cases in which the existence of
discrimination is a disputed issue.” Chavez v. Illinois State
Police, 251 F.3d 612, 637-38 (7th Cir. 2001) (“While few
opinions directly acknowledge that statistics may be used
to prove discriminatory effect, the Court has repeatedly
relied on statistics to do just that.”) citing, Int’l Bhd. of
Teamsters v. United States, 431 U.S. 324, 339 (1977).
A.

The Defendants’ current signature challenge
process fails the standard of Strict Scrutiny
with a preference in favor of the candidate
seeking access to the ballot.

In ballot access cases, the courts routinely apply strict
scrutiny analysis to State restrictions:
“the burden on Plaintiffs’ rights is so severe
that Strict scrutiny applies. But even if
strict scrutiny does not apply, the States’
interest in regulating presidential elections
is not sufficiently important to warrant the
restrictions imposed.”

18
Green Party of Georgia v. Kemp, 2016 WL, 1057022,19
(U.S. Dist. Ct, N.D. GA 2016).
In determining whether a burden on ballot
access is severe,
“What is ultimately important is not the
absolute or relative number of signatures
required but whether a ‘reasonably diligent
candidate could be expected to be able to
meet the requirements and gain a place on the
ballot.’” (Bowe v. Bd Of Election Comm’rs of
City of Chicago, 614 F.2d 1147, 1152 (7th Cir.
1980) citing Storer, 415 U.S. at 742).
Stone v. Bd. Of Elections Comm’rs of City of Chicago, 750
F.3d 678-82 (7th Cir 2014).
B. Need for uniform rules with a presumption in
favor of the challenged candidate.
The Constitution’s First and Fourteenth Amendment
protections are for candidates’ meaningful access to
the ballot, invalidating severe restrictions on obstacles
to ballot access, balanced against a State’s interest in
orderly elections with reasonable showing of a candidate’s
support. See Tripp. v. Smart, 2016 U.S. Dist. LEXIS
109216 (S.D. Ill. August 17, 2016) that challengers have
no Constitutional right to block another person from the
ballot; Moy v. Cowen, 958 F.2d 168, 170-171 (7th Cir. 1992).
Here, where the Court would apply a high level of judicial
review, it is inconceivable that Krislov’s signatures were so
deficient that thousands of signatures were found invalid.

19
IV. Leave to Amend should have been granted under
common circuit rules, and since amendment would
have sufficed under Uzuegbunam v. Preczewski,
___U.S.___, 141 S. Ct. 792 (2021).
Denying leave to amend even once is contrary to most
Circuit law, especially where it would not be futile, and
herein, in light of the District Court’s own view that a due
process claim could be asserted (and futher underscored
by the fact that this was early in the case, before anything
has been done that would make such an amendment
prejudicial). Runnion v. Girl Scouts of Greater Chi. &
Nw. Ind., 786 F.3d 510 (7th Cir. 2015).
But merely asserting what the court considered as
the wrong cause of action is not a basis for dismissal at
all. A federal complaint need not allege the right cause of
action; it need only allege facts that can support a claim
for recovery. Whitaker v. Milwaukee County, 772 F.3d
802, 808 (7th Cir. 2014); King v. Kramer, 763 F.3d 635
(7th Cir. 2014).

20
CONCLUSION
Accordingly, this court should grant the petition,
vacate and reverse the dismissal below, and remand
with instructions to permit Plaintiffs to amend their
Complaint, seeking a declaration that the County Board’s
petition challenge procedures, in order to be valid, must
adopt uniform signature challenge standards, with the
burden on the challenger, and with consideration for
statistical margins of error, with nominal damages, per
Usuegbunam v Preczewski.
Dated: July 22, 2020
Respectfully submitted:
Clinton A. Krislov
Counsel of Record
Kenneth T. Goldstein
Krislov & A ssociates, Ltd.
20 North Wacker Drive,
Suite 1006
Chicago, IL 60606
(312) 606-0500
clint@krislovlaw.com
Counsel for Petitioners

APPENDIX

1a
A
APPENDIX Appendix
A — OPINION
OF THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT,
FILED FEBRUARY 22, 2021
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 20-1928
CLINTON A. KRISLOV AND MICHAEL POWERS,
Plaintiffs-Appellants,
v.
KAREN A. YARBROUGH, CLERK OF
COOK COUNTY, ILLINOIS, et al.,
Defendants-Appellees.
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 20 C 469. Virginia M. Kendall, Judge.
February 18, 2021, Argued;
February 22, 2021, Decided
Before Easterbrook , Wood, and St. Eve, Circuit
Judges.
Easterbrook, Circuit Judge. In March 2020 Clinton
Krislov sought to run in the Democratic primary for
a position on the Supreme Court of Illinois. To get on

2a
Appendix A
the ballot he needed 5,050 valid signatures, or 0.4% of
the votes cast in the same district for the same party’s
candidate in the most recent gubernatorial election. 10
ILCS 5/7-10(h). He submitted about 9,500 signatures,
but many were ruled invalid and his total fell about 100
short. (Six other candidates passed the mark.) Krislov
could have protested the election officials’ decision in
state court, which is required by law to render a prompt
decision. 10 ILCS 5/10-10.1(a). Instead he sued in federal
court, contending that Illinois violated the Constitution by
not giving him the benefit of the doubt. Krislov contends
that even professional document examiners have an error
rate in authenticating (or not) signatures purporting to be
those of registered voters, and that falling 100 signatures
short of 5,050 is within the margin of error for document
examiners. Krislov also observed that the people who
examine signatures in Illinois are not professionals and
doubtless have higher error rates (though in a large sample
false negatives and false positives may offset).
The district court saw this as a state-law challenge
to a state-law requirement, which Krislov had forfeited
by not using his state remedies. The judge observed that
“close enough for government work” is not an available
doctrine in Illinois, which requires candidates to submit
all of the required signatures. Jackson-Hicks v. East
St. Louis Board of Election Commissioners, 2015 IL
118929 ¶31, 390 Ill. Dec. 1, 28 N.E.3d 170 (S. Ct. Ill. 2015).
Someone worried about the inevitable errors in examining
signatures can gather more. Instead of stopping with
0.7% of the votes for the Democratic candidate in the last
race for Governor, Krislov could have gathered 1% of that

3a
Appendix A
number, the better to ensure that the signatures deemed
valid met the 0.4% threshold. The Supreme Court has held
that a state does not violate the Constitution by requiring
a would-be candidate to present signatures equal to 5%
of the total electorate. Jenness v. Fortson, 403 U.S. 431,
91 S. Ct. 1970, 29 L. Ed. 2d 554 (1971). A requirement of
0.4% of one party’s turnout in an election is much lower
than 5% of all registered voters, so a candidate can’t have
a constitutional objection to a state law that may induce
someone to gather 1% of the party’s votes in a recent
election. The federal Constitution does not require states
to ensure that their laws are accurately administered. An
error of state law is just that—an error of state law. See,
e.g., Snowden v. Hughes, 321 U.S. 1, 11, 64 S. Ct. 397, 88 L.
Ed. 497 (1944); Davis v. Scherer, 468 U.S. 183, 192-96, 104
S. Ct. 3012, 82 L. Ed. 2d 139 (1984); Nordlinger v. Hahn,
505 U.S. 1, 16 n.8, 112 S. Ct. 2326, 120 L. Ed. 2d 1 (1992).
By the time the case had been briefed and argued in
this court, the election was over. That poses the question
whether the suit, which seeks only injunctive relief, is
moot. Krislov contends that there is a “public interest”
exception to the requirement that a suit remain justiciable
at all times, but he does not cite any federal source for
this supposed exception. Accurate adjudication always
is in the public interest—as is accurate administration
of state law—but that does not mean that federal courts
can proceed even if the plaintiff lacks standing or the
proposed remedy would not redress the plaintiff’s injury.
State courts may be authorized to act in the absence of a
live controversy; federal courts are not.

4a
Appendix A
Consider Carney v. Adams, 141 S. Ct. 493, 208 L.
Ed. 2d 305 (2020). The Supreme Court granted review to
resolve a dispute about the constitutionality of Delaware’s
requirement that its judicial system reflect partisan
balance—that no more than a bare majority of judges
belong to one political party and that, for three courts,
all judges be either Democrats or Republicans. But
the Court did not reach the merits. James Adams, the
plaintiff, switched his registration to Independent so that
he could try to contest the state’s rules. But he could not
show any prospect of appointment to any of the courts in
the foreseeable future, no matter his party affiliation, so
the Court held that he lacks standing and dismissed the
suit without reaching the merits. If there were a “public
interest” exception to the justiciability rules, the Court
would have decided the constitutionality of Delaware’s
laws. But there isn’t, so it didn’t.
Krislov, unlike Adams, is ready, willing, and able to
run for judicial office in the future. But whether he will
be affected by the 0.4% signature requirement (or the
means by which Illinois administers it) is uncertain. To
contest that requirement now, in the absence of a fight
about how it affects a run for office, Krislov must satisfy
the requirements of the doctrine under which a dispute
does not become moot if it is capable of repetition yet bound
to evade review. See, e.g., Meyer v. Grant, 486 U.S. 414,
417 n.2, 108 S. Ct. 1886, 100 L. Ed. 2d 425 (1988). He says
that this dispute is capable of repetition because hundreds
of candidates need to gather signatures in every election
cycle, and some of those signature-gathering efforts are
sure to fall just short. But the question is not whether the

5a
Appendix A
issue will matter to someone, but whether it will matter to
him, in particular. See Weinstein v. Bradford, 423 U.S.
147, 96 S. Ct. 347, 46 L. Ed. 2d 350 (1975).
For this dispute to recur with respect to Krislov,
he has to run again. We accept his word that he will do
so—though there may not be another opening in the First
District, where Krislov resides, until 2028. (Justices of
the Supreme Court of Illinois are elected from districts
for ten-year terms. The term of one Justice from the
First District expires in 2022, but she is eligible to run
for retention, and if she gathers enough votes her term
will be extended until 2032.) We also accept Krislov’s
assertion that other candidates, or their supporters, are
bound to contend that he has not gathered enough valid
signatures. Still, for the current dispute to recur, Krislov
would have to stop short of gathering enough signatures
(say, 1% of the number cast for a Democrat in the First
District in the 2026 gubernatorial election) to be confident
of surviving a challenge—and, what’s more, the outcome of
his effort would have to come so close to the line (say, 0.4%
± 0.02%) that it would be within the margin of error to be
expected if all signatures were to be vetted by professional
document examiners. Krislov has not tried to estimate the
chance that this would occur. That likelihood seems to us
as low as the probabilities deemed insufficient in Carney
and Weinstein.
Suppose that the signature count in Krislov’s next
candidacy again comes quite close to the 0.4% mark.
The exception to the mootness rule also requires that a
legal dispute be incapable of review when it next arises.

6a
Appendix A
Contests to the number of signatures raised to get on the
ballot are routinely resolved before ballots are printed.
The dispute about Krislov’s own candidacy was resolved
in 2020 by the Cook County Officer’s Electoral Board with
time to spare, and Krislov was entitled to prompt review
in state court. He told us at oral argument that he abjured
state court because he was sure that he would lose. Yet
having a dim view of one’s prospects differs from inability
to obtain timely review.
Because the 2020 election season is over, Krislov
is entitled to decision in federal court only if the legal
issues that arose in 2020 are both capable of repetition
with respect to Krislov personally and bound to evade
judicial review if they recur. He has not satisfied either of
these requirements, so this litigation is moot. We vacate
the judgment of the district court and remand with
instructions to dismiss for lack of a justiciable controversy.

7a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT, NORTHERN
DISTRICT OF ILLINOIS, EASTERN DIVISION,
FILED MAY 4, 2020
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
No. 20 C 469
CLINT KRISLOV, MICHAEL POWERS,
Plaintiffs,
v.
COOK COUNTY OFFICERS
ELECTORAL BOARD, et al,
Defendants.
Judge Virginia M. Kendall
ORDER
On March 10, 2020, the Court granted Defendants’
Motion to Dismiss Plaintiffs’ two-count Complaint because
neither count stated a claim upon which this Court can grant
relief. (Dkt. 17.) Specifically, the rule requiring candidates to
acquire a fixed number of signatures in order to gain ballot
access does not violate the First Amendment, and Plaintiffs
needed to have filed their 10 ILCS 5/10-10.1 claim in state
court. In the Order dismissing the case, the Court noted

8a
Appendix B
that Plaintiffs’ contentions about the process Defendants
used to invalidate signatures read more like a Due Process
claim but that the Complaint included no Due Process count.
(Dkt. 17 at p. 5 n. 5.) Illinois held its primary election on
March 17, 2020, and Krislov did not appear on the ballot.
Now Plaintiffs move to vacate the Court’s dismissal of their
Complaint and entry of judgment in order to file an amended
complaint raising a Due Process claim. For the reasons set
forth below, the Motion to Vacate (Dkt. 19) is denied.
The election for which Krislov sought placement on the
ballot has come and gone. Ordinarily, that would mean that
this case is moot because there is no way for the Court to
grant the requested injunctive relief. Some election-related
disputes, however, fall under the “capable of repetition yet
evading review” mootness exception. See Tobin for Governor
v. Ill. State Bd. of Elections, 268 F.3d 517, 528 (7th Cir.
2001) (“We are well aware that the passage of an election
does not necessarily render an election-related challenge
moot and that such challenges may fall within the ‘capable
of repetition yet evading review’ exception to the mootness
doctrine.”). In Tobin for Governor, the plaintiffs sued an
Illinois election board after the election had already passed
on the grounds that the process by which the board struck
petition signatures was invalid. Id. at 529. According to
the Seventh Circuit, such a case would only satisfy the
“capable of repetition yet evading review” exception if “(1)
the challenged action is too short in duration to be fully
litigated prior to its cessation or expiration, and (2) there is a
reasonable expectation that the same complaining party will
be subjected to the same action again.” Id. The challenge in
Tobin for Governor satisfied neither of these prongs because

9a
Appendix B
(1) “judicial review of the Board’s decision is available by
statute if the proper procedural steps are followed, and the
state courts to which that review is directed can order a
new election if the case is not fully litigated prior to election
day” and (2) “numerous contingencies” would need to occur
for the plaintiffs to have found themselves in the same
situation again; it was “pure speculation” whether all those
contingencies would occur. Id. In Krislov v. Rednour, 226
F.3d 851 (7th Cir. 2000), by contrast, the Seventh Circuit held
that Krislov (the same Krislov as in the instant case) could
challenge an Illinois election law-even after the election had
been held-that required signature gatherers to be voters
in the relevant political subdivision. This was because
Krislov expressed his intention to run again and there
was no question that as a candidate in the future, he-like
any candidate in Illinois-would be forced to hire signature
gatherers from within the political subdivision for which he
sought elected office. Krislov, 226 F.3d at 858.
The facts of the instant case are indistinguishable from
Tobin for Governor. First, just as in Tobin, had Plaintiffs
filed this case in state court pursuant to the relevant Illinois
statute, the state court could have ordered a new election
had the case not been fully litigated prior to election day.
Second, it is pure speculation to assume that Krislov would
have these same events happen to him again. Namely, (1) he
would have to run for office again and (2) ostensibly collect
the adequate number of petition signatures. Then, a heating
officer would have to (3) use the same process that Krislov
deems statistically invalid to (4) strike a sufficient number of
signatures such that Krislov no longer meets the minimum
signature threshold, and (5) the election board would then

10a
Appendix B
have to affi1m that decision. That all of these events will
recur for Krislov is pure speculation. This case is unlike
Krislov v. Rednour in that the only relevant contingency
needed in that case for the injury to recur was for Krislov to
run for office again. If he ran for office again, his campaign
would have had to follow the signature-gatherer residency
rule. Here, the Court does not doubt that Krislov intends to
tun again, but there are multiple additional contingencies
that stand in the way of Krislov being injured like this again
in the future. This case satisfies neither of the prongs of the
capable of repetition yet evading review mootness exception
as laid out in Tobin for Governor.
This case is moot and no mootness exception applies.
The Motion to Vacate Judgment and Amend Complaint [19]
is therefore denied.
/s/				
Virginia M. Kendall
United States District Judge
Date: May 4, 2020

11a
Appendix COF THE UNITED
APPENDIX C — OPINION
STATES DISTRICT COURT, NORTHERN
DISTRICT OF ILLINOIS, EASTERN DIVISION,
FILED MARCH 10, 2020
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
CLINT KRISLOV, MICHAEL POWERS,
Plaintiffs,
v.
COOK COUNTY OFFICERS
ELECTORAL BOARD, et al.,
Defendants.
No. 20 C 469
Judge Virginia M. Kendall
MEMORANDUM ORDER AND OPINION
Clint Krislov sought placement on the March 17,
2020 ballot for the Democratic nomination for the Illinois
Supreme Court. Krislov submitted 9,555 signatures to
the Cook County Officers Electoral Board (“the Board”).
Powers is one of those signatures. Objectors successfully
challenged 4,601 of those signatures, leaving Krislov 108 1
1. The Complaint suggests that Krislov was 108 signatures short,
but that arithmetic is incorrect. (9,555 – 4,601 = 4954; 5,050 – 4954

12a
Appendix C
signatures short of the 5,050 signatures required to make
the ballot. Plaintiffs argue that the Board’s decision to
strike these signatures violated Illinois law and their First
Amendment right of free association. The Complaint (Dkt.
1) seeks to have this this Court order the Board to place
Krislov’s name on the primary ballot.
Two motions are currently pending before the Court.
First, three individuals who filed an objector’s petition
with the Board contesting the validity of some of Krislov’s
signatures move to intervene as necessary defendants in
this case pursuant to Federal Rule of Civil Procedure 24(a)
(2). (Dkt. 3.) Second, Defendants move to dismiss the case
on the grounds that the Complaint fails to state claims
upon which relief can be granted. (Dkt. 10.) For the
reasons set forth below, the Motion to Dismiss is granted
and the Motion to Intervene is denied as moot.
BACKGROUND
The Court assumes that the following facts taken from
Plaintiffs’ Complaint are true for purposes of this motion.
See W. Bend Mut. Ins. Co. v. Schumacher, 844 F.3d 670,
675 (7th Cir. 2016).
= 96). The Court also notes that the signature and objection counts
provided in the Complaint differ from those listed in the Board’s
decision. (Dkt. 1-3.) According to the Board’s written opinion rejecting
Krislov’s challenge, he originally submitted 9,542 signatures, 4,610
of which were originally excluded. Ten of those 4,610 signatures were
later rehabilitated. (Dkt. 1-3 at pp. 2–3) However, for purposes of
this Motion, the Court is required to assume the factual accuracy of
the facts alleged in the Complaint.

13a
Appendix C
Krislov seeks placement on the March 17, 2020
Democratic Party primary ballot for nomination to the
Illinois Supreme Court. (Dkt. 1 ¶ 2.) In order to secure
placement on that ballot, Krislov needed to file a petition
with the Board containing 5,050 valid signatures. (Id.
¶ 4.) 2 Krislov submitted a petition containing 9,555
signatures in support of his candidacy. (Id. ¶ 3.) Plaintiff
Michael Powers is among the individuals who circulated
and signed Krislov’s petition. (Id. ¶ 2.) Objectors challenged
thousands of the signatures that Krislov submitted with his
petition, and the Board excluded 4,601 of those signatures
as invalid. (Id. ¶ 4.) After the Board excluded those
signatures, Krislov did not have enough signatures to
satisfy the 5,050 threshold. (Id.) Before the Board, Krislov
challenged the process by which signatures were excluded.
(Id. ¶ 5.) As part of his challenge, he explained that the
number of valid signatures he still had placed him within
the margin of error for professional document examiners.
(Id.) The Board rejected this argument and continues to
exclude him from the ballot. (Id.)

2. Illinois law requires judicial candidate petitions to contain
a number of signatures totaling 0.4% of the total votes cast in the
district for the candidate for Governor from that political party
in the most recent gubernatorial election. 10 ILCS 5/7-10(h). The
Illinois Board of Elections calculated that figure as 5,050 for the 2020
Democratic election for Supreme Court Justice in District 1. ILL.
STATE BD. OF ELECTIONS, 2020 CANDIDATE’S GUIDE, at p.
35, https://www.cookcountyclerk.com/sites/default/files/pdfs/2020%20
IL%20Candidates%20Guide_0.pdf.

14a
Appendix C
LEGAL STANDARD
When considering a motion to dismiss under Rule 12(b)
(6), the Court must accept as true all factual allegations
in the complaint and draw all permissible inferences in
the non-moving party’s favor. Bible v. United Student Aid
Funds, Inc., 799 F.3d 633, 639 (7th Cir. 2015). To state a
claim upon which relief may be granted, a complaint must
contain a “short and plain statement of the claim showing
that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)
(2). Detailed factual allegations are not required, but the
plaintiff must allege facts that when “accepted as true . . .
‘state a claim to relief that is plausible on its face.’” Ashcroft
v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atlantic
Corp. v. Twombly, 550 U.S. 544, 570 (2007)). In analyzing
whether a complaint meets this standard, the “reviewing
court [must] draw on its judicial experience and common
sense.” Iqbal, 556 U.S. at 679. When there are well-pleaded
factual allegations, the Court assumes their veracity and
then determines whether they plausibly give rise to an
entitlement to relief. Id.
ANALYSIS
A. Violation of 10 ILCS 5/10-10
Illinois law provides a cause of action for candidates
aggrieved by the decision of an election board. 10 ILCS
5/10-10.1(a). That cause of action specifically requires
candidates to seek judicial review “in the circuit court
of the county in which the hearing of the electoral board

15a
Appendix C
was held,” i.e., not in federal court. Id.3 Even if the Illinois
statute allowed aggrieved candidates to sue in this Court
for violations of Illinois election law, this Court would lack
jurisdiction over such a claim because “[f]ederal courts
have ‘no supervisory powers and no authority to instruct the
Board on how to follow state law.’” Shipley v. Chi. Bd. of
Comm’rs, 947 F.3d 1056 (7th Cir. 2020) (quoting Kasper v.
Bd. of Election Comm’rs, 814 F.2d 332, 342 (7th Cir. 1987).
Thus, this Court lacks jurisdiction over Plaintiffs’ claim
that the Board violated Illinois law by excluding Krislov
from the ballot. 4
B. First Amendment Claim Under 42 U.S.C. § 1983
The ability of a candidate for public office to gain
access to the ballot implicates the Constitutional rights
to “associate politically with like-minded voters and to
cast a meaningful vote.” Stone v. Bd. of Election. Com’rs
for City of Chi., 750 F.3d 678 (7th Cir. 2014) (citing
Anderson v. Celebrezze, 460 U.S. 780, 786 (1983)). But not
all restrictions “on candidates’ eligibility for the ballot
impose constitutionally-suspect burdens.” Anderson,
460 U.S. at 788. Indeed, signature requirements are valid
prerequisites to ballot access if they are “reasonable” and
3. The Board’s decision denying Krislov’s petition also contains
a notice that Illinois law requires any party aggrieved by its decision
to seek judicial review in the Circuit Court of Cook County within
five days of the Board’s decision. (Dkt. 1-3 at p. 4.)
4. Because the Court is also dismissing the First Amendment
claim, the Court also lacks supplemental jurisdiction over the state
statutory claim.

16a
Appendix C
“nondiscriminatory.” Stone, 750 F.3d at 681 (quoting
Burdick v. Takushi, 504 U.S. 428, 434 (1992)). In
Stone, for example, the Seventh Circuit upheld a 12,500
signature requirement for making the Chicago mayoral
ballot. 750 F.3d 678. Also n Jenness v. Fortson, 403 U.S.
431 (1971), the Supreme Court upheld a requirement of
signatures accounting for more than 5% of the eligible
voting population. Thus, there is no question that the
Illinois statute—which requires signatures from .4% of
the number of people who voted in a political party’s most
recent gubernatorial primary within the relevant electoral
district—is constitutional.
But Plaintiffs do not apparently dispute the
constitutionality of Illinois’s statutory signature
requirements; instead, they complain that the means by
which the Board invalidated signatures was unlawful
because: (1) “the records examiners have little training,”
or “special expertise”, (2) there was a “lack of an objective
standard” applied to the review of signatures, and (3) “the
shortfall is well within the margin of error” such that
the total number of accepted signatures should suffice.
(Dkt. 1 ¶¶ 14, 20.) These objections do not sound in First
Amendment law, but rather in state administrative law. 5 As
with the claim brought under the state statute, this Court
lacks jurisdiction over a claim about the individuals a State
agency hires or the statistical techniques those individuals
use to implement the State’s constitutionally valid election
law. This Court cannot tell a State agency how to interpret
5. Krislov might have some sort of Due Process claim, but he
does not allege a Due Process claim, and the Court has received no
briefing on whether the facts alleged state such a claim.

17a
Appendix C
the State’s laws, but Plaintiffs’ “First Amendment” claim
asks this Court to do just that, by arguing that the agency
must use only highly-trained document professionals and
must account for margins of error in determining whether
the statutory signature thresholds have been satisfied.
This Court is without authority to redress a grievance
of this nature, so Plaintiffs lack Article III standing. See
Groshek v. Time Warner Cable, Inc., 865 F.3d 884, 886
(7th Cir. 2017) (quoting Lujan v. Defenders of Wildlife,
504 U.S. 555, 560 (1992)) (“The ‘irreducible constitutional
minimum of standing’ consists of three elements: injuryin-fact, causation, and redressability.”). Even if Plaintiffs
had standing to bring this claim about the Board’s
administrative processes, the Illinois Supreme Court has
already foreclosed the arguments brought in this count.
See Jackson-Hicks v. E. St. Louis Bd. of Election Com’rs,
28 N.E.3d 170, 180 (Ill. 2015) (“As we have explained,
the clear and unambiguous [signature] standard adopted
by the General Assembly requires compliance with
a specific numerical threshold determined according
to a specific mathematical formula. A candidate either
meets that minimum threshold or does not. There is no
close enough. . . . [S]ubstantial compliance is not a valid
justification for deviating from the clear and unambiguous
minimum signature threshold set by the legislature.”)
CONCLUSION
This Court lacks jurisdiction over Count I of Plaintiffs’
Complaint because it is a state statutory claim that can
only be heard in state court. Plaintiffs also fail to state a
First Amendment claim in Count II. Defendants’ Motion

18a
Appendix C
to Dismiss [10] is therefore granted. As the Court is
dismissing the Complaint in its entirety, the Court need
not consider whether Michael Powers has independent
standing nor whether the intervenors are necessary parties
to this suit. The Motion to Intervene [3] is dismissed as
moot.

Date: March 10, 2020

/s/				
Virginia M. Kendall
United States District Judge

